VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                        Inspection of 

                                                                    VA Regional Office 

                                                                    St. Paul, Minnesota 





                                                                                  September 9, 2013
                                                                                   13-01550-286
             ACRONYMS AND ABBREVIATIONS 



OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
STAR         Systematic Technical Accuracy Review
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov 

                 (Hotline Information: www.va.gov/oig/hotline ) 

                  Report Highlights: Inspection of VA
                  Regional Office St. Paul, MN


Why We Did This Review                            performance measures, we could not fully
                                                  assess the effectiveness of the VARO’s
The Veterans Benefits Administration (VBA)        homeless veterans outreach program.
has 56 VA Regional Offices (VAROs), and
1 Veterans Service Center in Cheyenne,            What We Recommend
Wyoming, that process disability claims and
provide a range of services to veterans. We       We recommend the VARO Director develop
evaluated the St. Paul VARO to see how well       and implement a plan to review the
it accomplishes this mission.                     299 temporary 100 percent disability
                                                  evaluations remaining from our inspection
What We Found                                     universe and take appropriate action. The
                                                  Director should also provide refresher
Overall, VARO staff did not accurately            training on processing traumatic brain injury
process 14 (23 percent) of 60 disability          claims and monitor the effectiveness of that
claims reviewed. We sampled claims we             training.
consider at higher risk of processing errors,
thus these results do not represent the overall   Agency Comments
accuracy of disability claims processing at
this VARO.         Claims processing lacks        The VARO Director concurred with our
consistent compliance with VBA procedures         recommendations. Management’s planned
and is resulting in paying inaccurate and         actions are responsive and we will follow up
unnecessary financial benefits.                   as required.

Specifically, 5 of 30 temporary 100 percent
disability evaluations we reviewed were
inaccurate, generally because VARO staff
did not establish controls to request future
medical reexaminations. Further, VARO
staff incorrectly processed 9 of 30 traumatic
brain injury claims. These errors occurred                   LINDA A. HALLIDAY
primarily due to ineffective training on                 Assistant Inspector General
processing complex traumatic brain injury                 for Audits and Evaluations
claims.

Management generally ensured Systematic
Analyses of Operations were complete and
timely. However, VARO staff did not
always properly grant Gulf War veterans
entitlement to mental health treatment.
VARO staff provided adequate outreach to
homeless veterans.    Due to a lack of

                                                                                              i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. 	 Disability Claims Processing ...............................................................................................2
 

           Finding 1              The St. Paul VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendations........................................................................................6
 

    II. 	Management Controls ..........................................................................................................7 


    III. Eligibility Determinations....................................................................................................8 


           Finding 2 	            Gulf War Veterans Did Not Always Receive Entitlement Decisions

                                  for Mental Health Treatment .......................................................................8 


    IV. Public Contact ....................................................................................................................10 


Appendix A                        VARO Profile and Scope of Inspection .....................................................11 


Appendix B                        Inspection Summary ..................................................................................13 


Appendix C                        VARO Director’s Comments.....................................................................14 


Appendix D                        Office of Inspector General Contact and Staff Acknowledgments ...........16 


Appendix E                        Report Distribution ....................................................................................17
 




                                                                                                                                                 ii
                                                                  Inspection of VARO St. Paul, MN



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            We inspected the St. Paul VARO in April and May 2013. The inspection
Inspection          focused on the following four protocol areas—disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high-risk claims processing areas of temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    We also examined three operational activities—Systematic Analyses of
                    Operations (SAOs), Gulf War veterans’ entitlement to mental health
                    treatment, and the homeless veterans outreach program.

                    We reviewed 30 (9 percent) of 329 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We examined 30 (73 percent) of 41 disability
                    claims related to TBI that VARO staff completed from October through
                    December 2012.

Other               	 Appendix A provides details on the VARO and the scope of our
Information            inspection.
                    	 Appendix B provides criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the VARO Director’s comments on a draft of this
                       report.

VA Office of Inspector General                                                                 1
                                                                           Inspection of VARO St. Paul, MN



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing

Claims	             The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy            these claims processing issues and their impact on the delivery of veterans’
                    benefits.

Finding 1 	         The St. Paul VARO Could Improve Disability Claims Processing
                    Accuracy

                    The St. Paul VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 14 of the total 60 disability claims we sampled.
                    Claims processing lacks consistent compliance with VBA procedures and is
                    resulting in paying inaccurate and unnecessary financial benefits. We
                    identified 44 improper monthly payments to 2 veterans totaling
                    $14,068 from October 2009 to April 2013.

                    We sampled claims related to specific conditions that we considered at
                    higher risk of processing errors. As a result, the errors identified do not
                    represent the universe of disability claims or the overall processing accuracy
                    rate at this VARO. As reported by VBA’s Systematic Technical Accuracy
                    Review (STAR) program as of March 2013, overall accuracy of the VARO’s
                    compensation rating-related decisions was 93.7 percent—3.7 percentage
                    points above VBA’s target of 90 percent. The STAR program information
                    was not reviewed during the scope of this inspection. The following table
                    reflects the errors affecting, and those with the potential to affect, veterans’
                    benefits processed at the St. Paul VARO.

Table 1                          St. Paul VARO Disability Claims Processing Accuracy
                                                 Number                Claims Inaccurately Processed
                                                    of         Affecting       Potential To
                           Type of Claim                                                            Total
                                                  Claims       Veterans’      Affect Veterans’
                                                 Reviewed       Benefits          Benefits          Errors

                      Temporary 100 Percent
                      Disability Evaluations
                                                     30            2                  3                05
                      Traumatic Brain Injury
                      Claims
                                                     30            0                  9                09
                      Total                          60            2                12                 14
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid
                      at least 18 months or longer and TBI disability claims completed in the first quarter
                      FY 2013


VA Office of Inspector General                                                                                2
                                                                   Inspection of VARO St. Paul, MN


Temporary           VARO staff incorrectly processed 5 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. We identified three instances
                    where suspense diaries were not established as required. A suspense diary is
                    a processing command that establishes a date when VSC staff must schedule
                    a medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification for VSC staff to schedule the medical
                    reexamination.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available evidence showed that two of the five processing errors we
                    identified affected veterans’ benefits. The errors resulted in 44 improper
                    monthly payments to 2 veterans totaling $14,068 from October 2009 through
                    April 2013. Details on the two errors follow.

                    	 A Rating Veterans Service Representative (RVSR) did not grant a
                       veteran entitlement to an additional special monthly benefit based on
                       evaluations of multiple disabilities, as required by VBA policy. As a
                       result, VA underpaid the veteran $13,972 over a period of 3 years and
                       7 months.
                    	 A Decision Review Officer correctly granted a veteran entitlement to an
                       additional special monthly benefit. However, the effective date of
                       October 26, 2010, was incorrect because the date used to calculate
                       benefits was not the date of entitlement. The actual date of entitlement to
                       benefits was November 29, 2010. As a result, VA overpaid the veteran
                       $96 over a period of 1 month.

                    The remaining three errors had the potential to affect veterans’ benefits.
                    These errors occurred when VSC staff did not establish suspense diaries as
                    required, thereby removing the possibility staff would receive reminder
                    notifications to schedule medical reexaminations. Two of these errors
                    involved medical reexaminations required within 2 months of staff finalizing
                    decisions. The medical reexaminations were delayed by approximately
                    1 year and 1 month in one case, and by 2 years and 6 months in the other. In
                    such cases, VBA policy requires that VAROs use local procedures to
                    maintain control of future medical reexaminations.

                    In September 2010, after learning of these types of errors through our prior
                    inspection, VARO management established local diary procedures to ensure

VA Office of Inspector General                                                                  3
                                                                   Inspection of VARO St. Paul, MN


                    the reexaminations were scheduled. This corrective action appears effective
                    because we did not identify similar errors after its implementation. The
                    reasons for the remaining errors varied; we did not identify a systemic trend
                    related to processing temporary 100 percent disability evaluations.
                    Therefore, we made no recommendation for improvement in this area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, St. Paul, MN
Prior VA OIG        (Report No. 10-03604-75, dated January 25, 2011), we stated errors in
Inspection          processing temporary 100 percent evaluations generally occurred because
                    VARO staff did not establish suspense diaries in the electronic system to
                    provide reminder notifications to schedule medical reexaminations.

                    The Director of the St. Paul VARO concurred with our recommendation to
                    conduct a review of the remaining 175 temporary 100 percent disability
                    evaluations identified during our inspection. VARO management reported
                    staff reviewed the 175 evaluations and requested medical reexaminations
                    when appropriate. The OIG closed the recommendation in June 2011.

                    The Director of the St. Paul VARO also concurred with our recommendation
                    to implement controls to ensure staff establish reminder notifications to
                    schedule reexaminations for temporary 100 percent disability evaluations.
                    Effective September 2010, the VSC implemented process changes that
                    included additional oversight to ensure staff properly recorded diaries in the
                    electronic system. The OIG closed the recommendation in June 2011. VSC
                    actions appear to be effective because we did not find similar errors.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
Prior Audit         the then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each evaluation had a future
                    examination date entered in the electronic record. Our report stated, “If
                    VBA does not take timely corrective action, they will overpay veterans a
                    projected $1.1 billion over the next 5 years.” The then-Acting Under
                    Secretary for Benefits stated in response to our audit report that the target
                    completion date for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    then to June 30, 2012, and then again to December 31, 2012. Based on
                    VBA’s numerous delays, we are concerned about the lack of urgency in
                    completing this review, which is critical to minimize the financial risk of
                    making inaccurate benefits payments.

                    During our onsite May 2013 inspection, we followed up on VBA’s national
                    review of its temporary 100 percent disability evaluation processing. We
                    examined 40 (13 percent) of 311 temporary 100 percent disability

VA Office of Inspector General                                                                  4
                                                                   Inspection of VARO St. Paul, MN


                    evaluations on VBA’s SharePoint lists of cases for review. We determined
                    VARO staff accurately reported corrective actions, such as reducing
                    temporary 100 percent evaluations or establishing permanent evaluations, on
                    all 40 cases we reviewed. However, in comparing VBA’s national review
                    list with our data on temporary 100 percent disability evaluations, we found
                    two cases that VBA had not identified. We will continue monitoring this
                    situation as VBA works to complete its national review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, dated May 18, 2011), VBA agreed to develop and implement
                    a strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to all VARO Directors to implement a policy
                    requiring a second signature on each TBI case an RVSR evaluates until the
                    RVSR demonstrates 90 percent accuracy in TBI claims processing. The
                    policy indicates second-signature reviewers come from the same pool of staff
                    as those used to conduct local station quality reviews.

                    VARO staff incorrectly processed 9 of 30 TBI claims—all 9 claims had the
                    potential to affect veterans’ benefits. Following are descriptions of these
                    errors.

                    	 In four cases, RVSRs used inadequate VA medical examination reports
                       to evaluate the veterans’ disabilities. Two of these errors involved
                       medical reports where the examiners did not indicate whether the
                       veterans’ symptoms were associated with a TBI or a coexisting mental
                       condition. The RVSRs did not return these insufficient medical
                       examination reports to the issuing health care facilities as required by
                       VBA policy. Neither VARO staff nor we can ascertain all of the residual
                       disabilities of a TBI without adequate or complete medical evidence.
                    	 In two cases, RVSRs improperly evaluated TBIs separately from
                       coexisting mental conditions. The RVSRs were required to assign a
                       single evaluation for each veteran’s overall impaired functioning due to
                       both medical conditions.
                    	 In two cases, RVSRs improperly evaluated residuals of TBI. These
                       errors did not affect the veterans’ ongoing monthly benefits, but have the
                       potential to affect future benefits in the event of additional compensable
                       disabilities.



VA Office of Inspector General                                                                  5
                                                                   Inspection of VARO St. Paul, MN


                    	 In one case, an RVSR prematurely denied service connection for TBI
                       without requesting a TBI examination for a combat veteran.

                    Generally, errors associated with TBI claims processing resulted from
                    ineffective training on evaluating complex TBI claims. VSC management
                    and staff reported TBI claims are difficult to evaluate. The VARO held TBI
                    training in April 2012. However, staff subsequently reported the complex
                    policies for rating TBI claims were still confusing because they did not
                    frequently rate these types of cases. Staff indicated they need training that
                    focuses on more complex TBI scenarios. As a result of the TBI claims
                    processing errors, veterans may not always receive correct benefit decisions.

                    Recommendations

                    1.	 We recommend the St. Paul VA Regional Office Director conduct a
                        review of the 299 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.
                    2.	 We recommend the St. Paul VA Regional Office Director provide
                        refresher training on processing traumatic brain injury claims and
                        develop and implement a plan to monitor the effectiveness of that
                        training.

Management          The VARO Director concurred with our recommendations. The Director
Comments            indicated VARO staff will complete a review of all temporary 100 percent
                    disability evaluations remaining from our universe by October 2013.
                    Further, all RVSRs, Ratings Quality Service Representatives (RQSRs), and
                    Decision Review Officers (DROs) will complete the TBI training.

OIG Response        The Director’s actions       and    comments     are    responsive   to   the
                    recommendations.




VA Office of Inspector General                                                                  6
                                                                Inspection of VARO St. Paul, MN


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations
                    whether VSC staff used adequate data to support the analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 SAOs
                    annually.

                    Staff completed the 11 SAOs we reviewed on time. One of the SAOs did not
                    include an analysis of all required elements. The remaining 10 SAOs
                    included thorough analyses based on appropriate data, identified deficient
                    areas, and made recommendations for improving business operations. As a
                    result, we determined the VARO generally followed VBA policy and we
                    made no recommendation for improvement in this area.




VA Office of Inspector General                                                               7
                                                                   Inspection of VARO St. Paul, MN


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA policy in effect prior to December 2012, whenever an
Disorders           RVSR denied a Gulf War veteran service connection for any mental
                    disorder, the RVSR had to also consider whether the veteran was entitled to
                    receive mental health treatment. This policy required RVSRs to deny
                    entitlement when there was no medical evidence of a mental disorder that
                    developed within 2 years of separation from military service even when the
                    veteran had not claimed the benefit.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider Gulf War veterans’ entitlement to mental
                    health treatment when denying service connection for a mental disorder.
                    This pop-up notification does not generate if a previous decision did not
                    address entitlement to mental health services and a mental condition is not
                    part of the current claim.

Finding 2           Gulf War Veterans Did Not Always Receive Entitlement Decisions
                    for Mental Health Treatment

                    VARO staff did not properly address whether 19 of 30 Gulf War veterans
                    were entitled to receive treatment for mental disorders. Generally, these
                    inaccuracies occurred because staff overlooked reminder notifications to
                    consider entitlement to mental health treatment. As a result, veterans may be
                    unaware of their entitlement to treatment for mental disorders and may not
                    get the care they need.

                    Summaries of the 19 errors we identified follow.

                    	 In 10 cases, RVSRs denied service connection for mental disorders on
                       current disability decisions but did not consider entitlement to treatment.
                    	 In five cases, RVSRs addressed entitlement to treatment and informed
                       the veterans but did not document the decisions in the electronic record.
                    	 In four cases, RVSRs did not address entitlement to treatment for mental
                       disorders on current disability decisions after previous decisions did not
                       address the issue.

                    In December 2012, VBA modified its policy to state that RVSRs no longer
                    have to address Gulf War veterans’ entitlement to mental health care in all
                    cases. RVSRs only have to address this entitlement when a veteran’s mental
                    health benefit can be granted based on diagnosis of a mental disorder that
                    developed within 2 years of separation from military service. In 12 claims

VA Office of Inspector General                                                                  8
                                                                  Inspection of VARO St. Paul, MN


                    completed prior to the policy change, we identified processing errors where
                    veterans were not entitled to mental health treatment and RVSRs did not
                    properly address the issue in the formal decision. Because these veterans did
                    not have diagnosed mental disorders within 2 years of separation from
                    military service, the modified policy would not require RVSRs to address
                    entitlement to treatment in these cases.

                    Veterans were entitled to mental health treatment in the remaining seven
                    cases we identified with processing errors. These errors generally occurred
                    because VSC staff overlooked reminder notifications to consider entitlement
                    to treatment. Staff we interviewed knew the criteria for establishing
                    entitlement to treatment and when to address the issue. However, staff stated
                    that since the pop-up notification was easy to ignore, they would forget to
                    address this issue.

                    According to VSC management, the VARO implemented the Veterans
                    Benefits Management System, a web-based, electronic claims processing
                    solution complemented by improved business processes in April 2013, after
                    the scope of our review. VSC staff demonstrated that this new system
                    requires RVSRs to consider entitlement to mental health treatment whenever
                    they deny service connection for a mental illness. Because this new system
                    prevents staff from completing these claims without considering entitlement
                    to mental health treatment, we made no recommendation for improvement in
                    this area.




VA Office of Inspector General                                                                 9
                                                                 Inspection of VARO St. Paul, MN


                    IV. Public Contact

Outreach to         In November 2009, VA developed a 5-year plan to end homelessness among
Homeless            veterans by assisting every eligible homeless veteran willing to accept
Veterans            services. VBA generally defines “homeless” as lacking a fixed, regular, and
                    adequate nighttime residence.

                    Congress mandated that at least one full-time employee oversee and
                    coordinate homeless veterans programs at each of the 20 VAROs that VA
                    determined to have the largest veteran populations. VBA guidance in
                    September 2002 directed that coordinators at the remaining VAROs be
                    familiar with requirements for improving the effectiveness of VARO
                    outreach to homeless veterans. These requirements include developing and
                    updating a directory of local homeless shelters and service providers.
                    Additionally, the coordinators should attend regular meetings with local
                    homeless service providers, local governments, and advocacy groups to
                    provide information on VA benefits and services.

                    The St. Paul VARO had two part-time Homeless Veterans Outreach
                    Coordinators. Interviews with local homeless shelter representatives, VA
                    Medical Center staff, and a local Veterans’ Service Officer confirmed the
                    coordinators were proactive in providing outreach services to homeless
                    veterans. Our review further confirmed that VARO staff participated in
                    regular outreach events, during which they explained VA benefits. Because
                    we determined the coordinators provided outreach services to homeless
                    veterans as required, we made no recommendation for improvement in this
                    area. However, without established performance measures we could not
                    fully assess the effectiveness of the VARO’s homeless veterans outreach
                    efforts. VBA needs a measurement to assess the effectiveness of this
                    program.




VA Office of Inspector General                                                               10
                                                                   Inspection of VARO St. Paul, MN


Appendix A          VARO Profile and Scope of Inspection

Organization        The St. Paul VARO administers a variety of services and benefits, including
                    compensation and pension benefits; home loan guaranty; vocational
                    rehabilitation and employment assistance; specially adapted housing grants;
                    benefits counseling; and outreach to homeless, elderly, minority, and women
                    veterans.

Resources           As of March 2013, VBA reported the St. Paul VARO had a staffing level of
                    723.7 full-time employees. Of this total, the VSC had 184.3 employees
                    assigned.

Workload            As of March 2013, the St. Paul VARO reported 5,027 pending
                    compensation claims. The average time to complete claims was 97.8 days,
                    52.2 days less than the national target of 250.

Scope               VBA has 56 VAROs, and 1 VSC in Cheyenne, Wyoming, that process
                    disability claims and provide a range of services to veterans. We evaluated
                    the St. Paul VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    contacted VA OIG criminal investigators to provide a briefing designed to
                    alert VARO staff to the indicators of fraudulent claims processing.

                    Our review included 30 (9 percent) of 329 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of March 1, 2013.
                    We provided VARO management with 299 claims remaining from our
                    universe of 329 for its review. As follow-up to our January 2011 audit, we
                    sampled 40 temporary 100 percent disability evaluations from the SharePoint
                    list VBA provided to the VARO as part of its national review. We also
                    reviewed 30 (73 percent) of 41 TBI-related disability claims that the VARO
                    completed from October through December 2012.

                    Where we identify procedural inaccuracies, we provide this information to
                    help the VARO understand the procedural improvements it can make for
                    enhanced stewardship of financial benefits. We do not provide this
                    information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.



VA Office of Inspector General                                                                 11
                                                                   Inspection of VARO St. Paul, MN


                    We assessed the 11 mandatory SAOs the VARO completed in FYs 2012 and
                    2013. We examined 30 completed claims processed for Gulf War veterans
                    from October through December 2012 to determine whether VSC staff had
                    addressed entitlement to mental health treatment in the rating decision
                    documents as required. Further, we assessed the effectiveness of the
                    VARO’s homeless veterans outreach program.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the claims
                    folders we reviewed related to temporary 100 percent evaluations, TBI, and
                    Gulf War veterans’ entitlement to mental health treatment.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed as part of our inspection
                    of the St. Paul VARO did not disclose any problems with data reliability.

                    This report references VBA’s STAR data. As reported by STAR, the overall
                    accuracy of the VARO’s compensation rating-related decisions was
                    93.7 percent—3.7 percentage points above VBA’s FY 2013 target of
                    90 percent. We did not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                 12
                                                                          Inspection of VARO St. Paul, MN


Appendix B            Inspection Summary

                      Table 2 reflects the operational and administrative activities inspected,
                      applicable criteria, and whether or not we had reasonable assurance of
                      VARO compliance.
                            Table 2. St. Paul VARO Inspection Summary
         Five                                                                                  Reasonable
      Operational                                   Criteria                                   Assurance of
       Activities                                                                              Compliance
       Inspected                                                                               Yes     No
                                         Disability Claims Processing
    1. Temporary      Determine whether VARO staff properly reviewed temporary
       100 Percent    100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
       Disability     3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii, Chapter 2,        X
       Evaluations    Section J) (M21-1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

    2. Traumatic      Determine whether VARO staff properly processed claims for
       Brain Injury   disabilities related to in-service TBI. (FL 08-34 and 08-36) (Training            X
       Claims         Letter 09-01)

                                  Management and Administrative Controls
    3. Systematic     Determine whether VARO staff properly performed formal analyses
       Analysis of    of their operations through completion of SAOs. (M21-4, Chapter 5)        X
       Operations

                                          Eligibility Determinations
    4. Gulf War       Determine whether VARO staff properly processed Gulf War
       Veterans’      veterans’ claims, considering entitlement to medical treatment for
       Entitlement    mental illness. (38 United States Code 1702) ( M21-1MR Part IX,
       to Mental      Subpart ii, Chapter 2)(M21-1MR Part III, Subpart v, Chapter 7)                    X
       Health         (FL 08-15) (38 CFR 3.384) (38 CFR 3.2)
       Treatment

                                                Public Contact
    5. Homeless       Determine whether VARO staff provided effective outreach services.
       Veterans       (Public Law 107-95) (VBA Letter 20-02-34) (VBA Circular 27-91-4)
                                                                                                X
       Outreach       (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II, Chapter 2)
       Program
   Source: VA OIG
   CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                           13
                                                                          Inspection of VARO St. Paul, MN


Appendix C              VARO Director’s Comments


                   Department of
                   Veterans Affairs
                                                                Memorandum
           Date:       August 16, 2013

          From:        Director, VA Regional Office St. Paul, Minnesota

           Subj:       Inspection of the VA Regional Office, St. Paul, Minnesota

            To:        Assistant Inspector General for Audits and Evaluations (52)


                   1. 	 Attached are the St. Paul VARO’s comments on the OIG Draft Report:
                        Inspection of the VA Regional Office, St. Paul, Minnesota.

                   2. 	 Questions may be referred to Ms. Jessica Gillette, Veterans Service Center
                        Manager at 612-970-5300.

                       (original signed by:)

                       ANTIONE WALLER 

                       Director




                       Attachment




VA Office of Inspector General                                                                        14
                                                                Inspection of VARO St. Paul, MN


                                                                                   Attachment



Recommendation 1: We recommend the St. Paul VA Regional Office Director conduct a review
of the 299 temporary 100 percent disability evaluations remaining from our inspection universe
and take appropriate action.

Response: Concur.

The St. Paul VSC has assigned personnel and initiated a review of the remaining 100 percent
disability evaluations. Appropriate action will be taken, as necessary. Reviews will be
completed by October 15, 2013.

We request closure of this recommendation due to the existing plan for completion of review
and the actions taken to monitor effectiveness in this area.

Recommendation 2: We recommend the St. Paul VA Regional Office Director provide refresher
training on processing traumatic brain injury claims and develop and implement a plan to
monitor the effectiveness of that training.

Response: Concur.

In–person training on rating TBI claims was provided to all RVSRs, DROs, and RQRSs on June
20, 2013. The training focused primarily on the higher level concepts of rating TBI claims and
the specific errors identified during the OIG review.

All RVSRs and DROs in the St. Paul VSC will be required to complete the TBI Training
Performance Support System (TPSS) module during FY2013. As of August 2013, 76% of the
identified employees have completed the training. To receive credit for completing the TPSS
module, employees are required to rate two TBI claims. All TBI ratings are reviewed and
second signed by a RQRS to ensure accuracy.

We request closure of this recommendation due to the training and process changes taken to
monitor effectiveness in this area.




VA Office of Inspector General                                                              15
                                                         Inspection of VARO St. Paul, MN


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Ed Akitomo
                                         Daphne Brantley
                                         Brett Byrd
                                         Lee Giesbrecht
                                         Scott Harris
                                         Jeff Myers
                                         David Piña
                                         Nelvy Viguera Butler
                                         Diane Wilson




VA Office of Inspector General                                                       16
                                                               Inspection of the VARO St. Paul, MN


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office St. Paul Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Al Franken, Amy Klobuchar
                    U.S. House of Representatives: 	Michele Bachmann, Keith Ellison,
                       John Kline, Betty McCollum, Rick Nolan, Erik Paulsen,
                       Collin C. Peterson, Timothy J. Walz




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 17
